February 18, 2020
Via Electronic Filing and Hand Delivery
Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Kim Davis v. David Ermold, et al.,
No. 19-926

Dear Mr. Bickell:
I am co-counsel for respondents David Ermold, David Moore, James Yates, and Will Smith
in the above-referenced case. On February 12, 2020, the Court called for a response to the certiorari
petition docketed in this case. Unless extended by the Court, the response would be due on March
13, 2020. For the reasons that follow, and pursuant to Rule 30.4, I respectfully request an extension
of 31 days, to and including Monday, April 13, 2020.
I have only recently been engaged as co-counsel in this matter. The extension sought will
allow me sufficient time to review the record and prepare an opposition that will be helpful to the
Court, while also allowing me to attend to deadlines in other matters. In addition, I have
longstanding travel plans out of the country from February 26 through March 8, 2020.
For these reasons, I ask that a 31-day extension be granted. Thank you for your attention
to this matter.
Sincerely,
/s/Adam R. Pulver
Adam R. Pulver
Counsel for Respondent
Cc: Mathew D. Staver, Counsel for Petitioner

